<html>
<title> - NECESSARY RENOVATIONS TO HOUSE OFFICE BUILDINGS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
            NECESSARY RENOVATIONS TO HOUSE OFFICE BUILDINGS

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                  HELD IN WASHINGTON, DC, MAY 6, 2009

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
52-313                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
               Victor Arnold-Bik, Minority Staff Director


                        NECESSARY RENOVATIONS TO
                         HOUSE OFFICE BUILDINGS

                              ----------                              


                         WEDNESDAY, MAY 6, 2009

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:05 a.m., in Room 
1324, Longworth House Office Building, Hon. Robert A. Brady 
[chairman of the committee] presiding.
    Present: Representatives Brady, Lofgren, Gonzalez, Lungren, 
and Harper.
    Staff Present: Liz Birnbaum, Staff Director; Charles T. 
Howell, Chief Counsel; Jamie Fleet, Deputy Staff Director; Matt 
Pinkus, Professional Staff/Parliamentarian; Kyle Anderson, 
Press Director; Kristin McCowan, Chief Legislative Clerk; 
Shervan Sebastian, Staff Assistant; Victor Arnold-Bik, Minority 
Staff Director; Alec Hoppes, Minority Professional Staff; Karin 
Moore, Minority Legislative Counsel; Andy Snow, Minority 
Professional Staff; and Salley Collins, Minority Press 
Secretary. 
    The Chairman. Good morning. I would like to call the 
hearing on House Administration to order. And the hearing room 
is a little bit bigger, but I like ours better. It is more 
cozier because I can't see, you know.
    This morning we are we are going to discuss the condition 
of the Cannon House Office Building and the East and West 
Underground Garages and the Architect's recommendations for 
what to do with them.
    Last year, we celebrated the centennial of the Cannon House 
Office Building, which was opened in 1908. Of course, there 
have been some repairs and upgrades in the last 100 years, but 
much of the basic infrastructure, the pipes and the conduits, 
is decades old. And every time a pipe breaks or a window leaks 
or a radiator fails, we have to cut into the walls, disrupt 
offices and spend thousands of dollars to repair the problem.
    In addition, we recently learned that some stone 
decorations along the upper exterior wall have begun to fall. 
These obviously create a huge hazard for pedestrians and cars 
below. The Architect has temporarily removed the loose stone 
and stabilized the building, but a long-term solution is 
overdue.
    At the same time, the House Underground Garages are now 
more than 40 years old and clearly have exceeded their design 
life. Concrete is breaking off the floors and the ceilings, 
exposing rusted reinforcements and threatening to damage cars. 
One side of the east garage is held up by extra steel supports. 
Leaks along the walls have to be channeled out of the structure 
through special drains.
    The Architect has proposed a plan to renovate the 
underground garages, which are in the worst shape, over the 
next 5 years. Then he will move on to repair the Cannon 
Building. Of course, we will have some disruption as cars and 
offices have to be moved around during construction. But in the 
end, our buildings will last for decades more.
    So I thank you for appearing here today and look forward to 
hearing from the Architect and the GAO regarding the need to 
renovate these buildings.
    I would now like to recognize the Ranking Member, Mr. 
Lungren.
    [The statement of Chairman Brady follows:]

    [GRAPHIC] [TIFF OMITTED] T2313A.001
    
    [GRAPHIC] [TIFF OMITTED] T2313A.002
    
    Mr. Lungren. Thank you very much, Mr. Chairman. I thank you 
for calling this hearing today.
    When you said at the beginning of this year we were going 
to work, you were right. Just last week, we heard from 
officials at the Library of Congress about the technological 
infrastructure requirements needed to meet the Library's 21st 
century mission of preserving the world's largest universal 
collection of historical documents for future generations.
    Similar to the Librarian's mission, the Architect of the 
Capitol is charged with the sizeable task of preserving the 
historical buildings throughout the Capitol grounds and 
ensuring the structural integrity and safety for the millions 
of visitors who travel here each year to experience firsthand 
the rich history of this Nation's government.
    It always strikes me that if you don't get chills up your 
spine when you see the Nation's Capitol, maybe it is time for 
you to leave. And it is not just the Capitol itself, but it is 
the buildings that surround it on this campus that are 
important to the American people, not because we, individual 
Members of Congress, are here but because of the institution. 
And I would hope we would do our duty to ensure that these 
monuments to America's institutions are properly cared for.
    Today, we are here to discuss the Architect's proposed 
plans for renovations that are necessary to preserve our oldest 
congressional office building, along with two underground 
parking facilities.
    The Cannon House Office Building, completed and first 
occupied by the 60th Congress, did, as the Chairman said, 
celebrate its 100th year anniversary last year. It is rich in 
history. Some of the critical infrastructure systems within the 
building, however, have been there throughout much of that 
history and now are in a steady state of decline. The 
Architect's facility assessment for the Cannon Building 
identified major deficiencies in the heating and air 
conditioning system, plumbing, mechanical equipment, life 
safety and fire protection systems, electrical equipment, and 
the exterior stonework.
    According to the Architect's assessments, those two House 
underground parking buildings, built in 1968, are in even more 
state of disrepair and are an even more urgent matter. The 
garages are deteriorating to the point where there is 
significant structural damage, including crumbling concrete and 
corroding steel reinforcements.
    I was just thinking the other day, we ought to compare them 
with the new Nationals ballpark. I doubt that our parking 
structures would be acceptable under the standards of Major 
League Baseball or the NFL. And isn't that a sad comment that 
we wouldn't allow people to go watch ball games at a structure 
or park their cars at a structure, but asking people to come 
here to our Nation's Capitol and asking people who work here to 
park in such structures and to work in such structures seems to 
be acceptable, at least to this point in time.
    We are going to work with the Architect on a bipartisan 
basis to assure that what needs to be done is done. The 
Architect's facility assessment was reviewed and validated by 
the Government Accountability Office, which concurred with the 
Architect's analysis that the House Underground Garages require 
renovation within 2 to 4 years, and the Cannon Building needs 
to be renovated within 5 to 7 years.
    So I want to first applaud the Architect. I believe under 
your leadership your Office has aggressively and proactively 
tackled difficult facility planning efforts. We have some 
unique circumstances here. We have to keep operating. We have 
to notify people. We have to provide safety, but we have to get 
the business of the people done, and that puts some additional 
strictures on us.
    So I thank you for what you have done so far. I thank the 
Chairman for bringing this to the attention of this committee 
and the Congress itself, and I pledge to work on a bipartisan 
basis with the Chairman to make sure that we provide the 
leadership from our standpoint to take care of the job that 
needs to be done.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. Thank you.
    [The statement of Mr. Lungren follows:]

    [GRAPHIC] [TIFF OMITTED] T2313A.003
    
    [GRAPHIC] [TIFF OMITTED] T2313A.004
    
    [GRAPHIC] [TIFF OMITTED] T2313A.005
    
    [GRAPHIC] [TIFF OMITTED] T2313A.006
    
    The Chairman. Our first witness today will be Stephen T. 
Ayers, the Acting Architect of the Capitol. Mr. Ayers is a 
licensed architect, has been at the Architect's Office for more 
than 10 years, and has been serving as Acting Architect for the 
last 2 years.
    Our second witness will be Terrell Dorn. Mr. Dorn has 
worked on physical infrastructure issues for the GAO since 
2001, following many years as a civil engineer and a 
construction manager.

 STATEMENTS OF STEPHEN T. AYERS, AIA, ACTING ARCHITECT OF THE 
CAPITOL, OFFICE OF THE ARCHITECT OF THE CAPITOL; AND TERRELL G. 
  DORN, DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    The Chairman. Mr. Ayers, we would like to hear from you.

                 STATEMENT OF STEPHEN T. AYERS

    Mr. Ayers. Well, thank you, Mr. Chairman, Congressman 
Lungren, and members of the subcommittee for the opportunity to 
testify today regarding the proposed renovations for the Cannon 
House Office Building and the House Underground Garages.
    The need for these projects is easily apparent. A quick 
walk behind the scenes reveals serious deterioration in many 
areas. We are requesting funding in fiscal year 2010 to begin 
to address these projects as we continually work to manage the 
backlog of deferred maintenance and capital renewal projects 
throughout the Capitol complex.
    Last year, we marked the Cannon's 100th anniversary. This 
building is historic and requires extensive maintenance to 
ensure that it continues to serve as a safe, functioning, and 
professional working environment.
    The Cannon Building was completed and occupied in 1908 and 
is the oldest congressional office building. By 1913, the House 
had outgrown the office space in the building, so a new fifth 
floor was added. Over the course of the next 30 years, several 
improvements were made, but a complete top-to-bottom renovation 
has never been undertaken in this building. As a result, 
several components of the Cannon Building system date back to 
its original construction and are now clearly at the end of 
their useful lives.
    A facility condition assessment of the Cannon Building 
completed this March shows that the building has been well 
maintained. However, major deficiencies have been identified in 
the heating, ventilation, and air conditioning systems, 
plumbing, mechanical equipment, life-safety and fire protection 
systems, electrical equipment and exterior stone, as the 
Chairman mentioned. Additionally, several building components, 
such as windows, doors, and lighting systems, are in need of 
upgrading to comply with current building codes and Federal 
energy standards.
    Much of the plumbing in the Cannon Building is at least 40 
years old and is breaking down, resulting in leaks and service 
outages. For example, last December a hot water pipe failed 
beneath the basement floor. To fix it, we had to shut off the 
building's heat for 4 days.
    A failure in one of the main storm water pipes several 
years ago also resulted in flooding behind the walls in a 
Member's office. The repairs took more than 4 weeks and 
severely disrupted work in that Member's office.
    Most importantly, the Cannon Building renovation will allow 
us to address key life-safety issues such as egress routes, 
fire suppression systems, fireproofing on structural 
components, and smoke control systems as well.
    Due to its age and deterioration, we recommend a phased 
renewal of the Cannon Building beginning in fiscal year 2011 or 
fiscal year 2012. We believe that effective stewardship 
requires these issues to be addressed now before they become a 
crisis. Our fiscal year 2010 budget request includes $5 million 
to undertake the critical planning process necessary for a 
renovation of this scale. This will enable us to estimate the 
costs of the design and the construction phases.
    The Cannon Building renewal is planned as a multiyear 
renovation project. Each phase of the construction will be 
designed to minimize disruption to occupants and operations. 
The project will include a plan for temporarily housing offices 
which are displaced during the work. While House leadership 
will ultimately determine who moves and when, it is clear to 
everyone that all Members must remain in one of the House 
office buildings on the primary campus.
    With regard to the House Underground Garages, which were 
built in 1968, serious and imminent safety deficiencies exist 
and must be corrected in very short order. These deficiencies 
include the corrosion of embedding reinforcing steel under the 
concrete floor slabs and the delamination of the concrete slabs 
themselves.
    To address these issues, we have requested $37 million in 
our fiscal year 2010 budget for the renovation of the East 
Underground Garage. Funding for the West Underground Garage 
will be considered as part of our fiscal year 2012 budget. Each 
garage will take approximately 2 years to rehabilitate, and 
during this time the garages must be vacated. And those 
displaced during construction will be moved to temporary or 
leased parking spaces.
    The timely renewal of the Cannon Building and House 
Underground Garages is necessary to avoid system failure and to 
prevent a crisis which will ultimately negatively impact 
Members of Congress and their staffs. For example, if we don't 
undertake the garage work now, the entire floor slabs will have 
to be removed instead of simply repairing them, as we can do 
today.
    Mr. Chairman, I would like to conclude by thanking the 
committee for your continued interest and support of our 
efforts to maintain and preserve the Capitol complex, and I 
would be happy to answer any questions you may have.
    The Chairman. Thank you.
    [The statement of Mr. Ayers follows:]

    [GRAPHIC] [TIFF OMITTED] T2313A.007
    
    [GRAPHIC] [TIFF OMITTED] T2313A.008
    
    [GRAPHIC] [TIFF OMITTED] T2313A.009
    
    [GRAPHIC] [TIFF OMITTED] T2313A.010
    
    [GRAPHIC] [TIFF OMITTED] T2313A.011
    
    [GRAPHIC] [TIFF OMITTED] T2313A.012
    
    [GRAPHIC] [TIFF OMITTED] T2313A.013
    
    [GRAPHIC] [TIFF OMITTED] T2313A.014
    
    [GRAPHIC] [TIFF OMITTED] T2313A.015
    
    [GRAPHIC] [TIFF OMITTED] T2313A.016
    
    The Chairman. Mr. Dorn.

                  STATEMENT OF TERRELL G. DORN

    Mr. Dorn. Thank you, Mr. Chairman, Congressman Lungren, 
members of the committee.
    In spite of regular appropriations from Congress and good 
maintenance by the Architect of the Capitol, the Cannon House 
Office Building and the East and West Underground Garages have 
deteriorated over time and are in need of additional capital 
investment.
    In the garages, the structure is exposed and wear is easy 
to see. For example, water and salt have combined over the 
years to corrode some of the steel that is used to reinforce 
the concrete parking decks. The steel rusts and expands, 
popping off the concrete and exposing the underlying steel to 
even further corrosion. In some cases, concrete has popped off 
of a parking garage ceiling unexpectedly, disrupting the 
parking spaces below until inspections and emergency repairs 
can be made. In other cases, regular AOC walk-throughs of the 
decks have spotted damaged concrete that was loose but had not 
yet fallen. Removal or repair of the damage could happen in a 
planned manner with minimal disruption to Members and staff.
    A similar situation exists in the Cannon House Office 
Building, but in most cases the wear and corrosion over the 
years is harder to see. The marble floors still shine and the 
heating still works and the lights still come on when you flip 
the switch. But behind the walls and in the mechanical rooms in 
the attics, the infrastructure supporting the building, such as 
the plumbing and heating system, are deteriorated and subject 
to failure in the near future.
    Like with the parking deck example, repair and replacement 
of the building infrastructure in a planned and orderly fashion 
rather than through emergency fixes will be cheaper and least 
disruptive to operations of the Cannon House Office Building.
    In addition, life safety codes, energy codes, accessibility 
codes and increased security requirements have raised the 
minimum requirements for a building that was never designed to 
handle them. For example, the Cannon Building will not likely 
be able to meet the energy conservation measures of the Energy 
Independence and Security Act of 2007 without repairs to its 
heating and air-conditioning systems and replacement of the 
single pane windows. Accommodating these mandates, while 
minimizing the impact to House operations and to the historic 
fabric of the monumental Cannon Building will be challenging 
and will require significant thought and planning.
    The AOC has taken important initial steps to accomplish 
that goal. They have commissioned studies to examine what needs 
to be done to bring existing systems up to current code. They 
have hired independent consultants to look over their shoulders 
and give a third-party assessment of the building's condition, 
and they hired an independent company to estimate the cost to 
do all of this work based on the design data that was available 
so far, all those good practices.
    Based on the conceptual information available to date, the 
AOC and its consultants have estimated the cost to finish the 
design and then renovate the Cannon Building over the next 5 
years will be about $752 million, which includes an amount for 
contingency and temporary swing space that is needed to phase 
the project and minimize disruption.
    There are still too many unknowns at this stage of design, 
however, to consider that to be a realistic number for 
appropriation purposes. For example, the Construction Industry 
Institute cautions that the conceptual level estimate such as 
this may vary as much as 40 percent from the final cost. As 
described by AOC in its testimony this morning and in the 
fiscal year 2010 budget, additional design and planning is 
needed to resolve the project's scope of work and to work out 
the details and to provide the Congress with a better-quality 
estimate on which to base its future decisions.
    In summary, based on inspections by independent 
consultants, the House East and West Underground Garages are 
badly deteriorated and in need of extensive repairs over the 
next couple of years. Similarly, as previously recommended by 
GAO, an independent facility condition assessment of the Cannon 
House Office Building has been conducted and recommends that 
the necessary capital reinvestment be made over the next 5 to 7 
years to protect the asset and to reduce the likelihood of 
unplanned disruption to building operations.
    Additionally, code issues in the Cannon Building need to be 
addressed to ensure that Members and staff have a safe and 
accessible place to work. The Cannon Building design is not far 
enough along to give an estimate, but it is accurate enough for 
appropriations. Additional design and planning will need to be 
accomplished over the next 2 years in order to provide Congress 
with the better information it needs to make future decisions.
    Mr. Chairman, that concludes my statement, and I am 
prepared to answer any questions.
    The Chairman. Thank you.
    [The statement of Mr. Dorn follows:]

    [GRAPHIC] [TIFF OMITTED] T2313A.017
    
    [GRAPHIC] [TIFF OMITTED] T2313A.018
    
    [GRAPHIC] [TIFF OMITTED] T2313A.019
    
    [GRAPHIC] [TIFF OMITTED] T2313A.020
    
    [GRAPHIC] [TIFF OMITTED] T2313A.021
    
    [GRAPHIC] [TIFF OMITTED] T2313A.022
    
    [GRAPHIC] [TIFF OMITTED] T2313A.023
    
    [GRAPHIC] [TIFF OMITTED] T2313A.024
    
    [GRAPHIC] [TIFF OMITTED] T2313A.025
    
    [GRAPHIC] [TIFF OMITTED] T2313A.026
    
    [GRAPHIC] [TIFF OMITTED] T2313A.027
    
    [GRAPHIC] [TIFF OMITTED] T2313A.028
    
    [GRAPHIC] [TIFF OMITTED] T2313A.029
    
    [GRAPHIC] [TIFF OMITTED] T2313A.030
    
    [GRAPHIC] [TIFF OMITTED] T2313A.031
    
    [GRAPHIC] [TIFF OMITTED] T2313A.032
    
    [GRAPHIC] [TIFF OMITTED] T2313A.033
    
    [GRAPHIC] [TIFF OMITTED] T2313A.034
    
    [GRAPHIC] [TIFF OMITTED] T2313A.035
    
    [GRAPHIC] [TIFF OMITTED] T2313A.036
    
    [GRAPHIC] [TIFF OMITTED] T2313A.037
    
    [GRAPHIC] [TIFF OMITTED] T2313A.038
    
    [GRAPHIC] [TIFF OMITTED] T2313A.039
    
    [GRAPHIC] [TIFF OMITTED] T2313A.040
    
    [GRAPHIC] [TIFF OMITTED] T2313A.041
    
    [GRAPHIC] [TIFF OMITTED] T2313A.042
    
    [GRAPHIC] [TIFF OMITTED] T2313A.043
    
    The Chairman. Mr. Ayers, is there any major safety concerns 
that we need to be concerned about right now until the building 
is renovated?
    Mr. Ayers. We certainly have some outstanding fire and 
life-safety issues in the building right now. We have current 
appropriations to take care of those. So I don't think there is 
anything new from a life-safety perspective that we need to do 
until we undertake a major building renovation.
    The Chairman. No stones falling anymore?
    Mr. Ayers. Certainly we have taken a look at all of the 
stone around the building, and we have done a thorough 
inspection of that. We do think that there is some 
stabilization on that stone that needs to be undertaken, but I 
don't think that is an outrageously unsafe condition today. I 
think that is under control, and we can take care of that with 
existing appropriations.
    The Chairman. You have the funds to do that?
    Mr. Ayers. Yes.
    The Chairman. How long will the Members have to be out of 
their offices when you start the Cannon? Will it be done in 
phases?
    Mr. Ayers. I think the best approach is for the building to 
be done in phases, and most importantly, the success of any 
project really lies in the effective development of a plan up 
front. And that is what the $5 million we have requested in 
2010 will enable us to do, to really map out an effective plan, 
whether that is renovating the building floor by floor or 
vertical zone by vertical zone. Today, we think vertical zone 
by vertical zone, a wing of the building at a time, is probably 
the best solution, and to do that, it is approximately a year 
per phase.
    The Chairman. Because you have a real nice office over in 
the Capitol and I would hate to take that away from you, you 
know.
    Mr. Ayers. It is a very nice office, you're right, Mr. 
Chairman.
    The Chairman. And you deserve it, sir.
    Mr. Ayers. Thank you.
    The Chairman. But I think you may be a little bit more 
lower on the ranking if we get some more Members in here.
    Mr. Ayers. Absolutely true.
    The Chairman. And I don't mind also voting from home if we 
need to do that. I wouldn't mind, but I thank you.
    Mr. Dorn, you say the cost is uncertain, and you want to 
try to get a certain cost that you think we will need to do 
this. But how about the design? Can we start with the design? 
Wouldn't that help? If we start the design now, wouldn't that 
save money? Would you know the design cost? At least we can try 
to get that up and running now instead of waiting for another 
year or so, and then that will be more expensive.
    Mr. Dorn. Certainly we need to--like Stephen said a minute 
ago, we need to invest money right now to do additional 
planning, and part of that planning is what they call 
programming to find out what the Members need in the Cannon 
Building going forward. In getting the input from you all, from 
Office of Compliance, from Capitol Police, all these 
requirements need to be brought together so that you can then 
complete the design. But to start design until you know exactly 
what you need to incorporate in the building from a 
programmatic point of view would be premature.
    The Chairman. You would need to know exactly what you are 
doing with the building before you try to put a design out 
there, preliminary design?
    Mr. Dorn. Not exactly. But you do need to know a lot more 
than what we know right now.
    The Chairman. I am saying that quicker is better. Every 
year costs go up.
    Mr. Dorn. Absolutely.
    The Chairman. Okay. Mr. Lungren.
    Mr. Lungren. Thank you, Mr. Chairman.
    As I was hearing Mr. Ayers there, I thought maybe he was 
the one that I ought to go to for my medical exam. His words 
were, ``The assessment found that the building is well-
maintained; however, major deficiencies have been identified in 
heating, ventilation, air conditioning, plumbing, mechanical 
equipment, life safety, fire protection systems, electrical 
equipment, exterior.''
    A doctor would tell me I am in good shape but there is 
something wrong with my heart, my liver, my knee, my head. I 
mean, I guess what you are saying is we have done the best we 
can in maintaining the building, despite the fact that we 
haven't done the capital investment necessary to basically 
bring it up to where we need to be; is that correct?
    Mr. Ayers. That is exactly right.
    Mr. Lungren. Will we incorporate, or do you plan on 
incorporating in terms of your plans things such as energy 
efficiency, water conservation, those kinds of things that we 
are trying to say ought to be done in the private sector? Would 
that be encompassed as opposed to just bringing it back to 
where it was, incorporating these kinds of things as well?
    Mr. Ayers. Absolutely, Mr. Lungren. We think that it is a 
great opportunity to incorporate sustainability initiatives in 
both of these projects. Our basic design standards for 
renovation of this nature in both of these projects will bring 
it to LEED silver standard, and we think we may be able to get 
that to the gold level standard. So we think we will certainly 
be incorporating a wide range of sustainability measures in 
both projects from water conservation to energy conservation as 
well.
    Mr. Lungren. You mentioned $752 million for Cannon as sort 
of a ballpark that some people talk about thus far; is that 
correct?
    Mr. Ayers. Mr. Dorn did, yes.
    Mr. Lungren. Mr. Dorn did, excuse me. And yet there is talk 
about it could deviate 40 percent. I guess that means 40 
percent up or down. Usually up.
    Mr. Dorn. It is usually--there are many more opportunities 
to raise the cost of anything than there are opportunities to 
bring the costs down.
    Mr. Lungren. The reason why I want to put that on the 
record is this. Look, there is a lot of criticism still about 
CVC, how much it cost and so forth. A lot of people don't 
understand we started that before 9/11. We had to change a lot 
after 9/11, the standards, what Congress asked for, the size of 
the space differed and so forth. I mean, you are comparing 
apples and oranges instead of apples and apples. But 
nonetheless, there still is that out in the public domain, that 
it was too expensive, it took too long.
    We have got to be very careful that we don't fall into that 
trap again. And that is, I think we ought to be very up front 
about what the serious costs may be, why those costs are there, 
and then try and see where we can legitimately save money as 
much as possible. I don't think we ought to crimp on preserving 
this national treasure here that belongs to the people of the 
United States. At the same time, they are very, very concerned 
about undue expenses.
    And this committee, I think, will give you authorization 
for that initial planning. I don't want to speak for the 
Chairman, but he and I have worked very well together on doing 
what needs to be done in this place. But at the same time, we 
have got to make sure that you understand that the American 
people are looking at us and making sure that we are spending 
our pennies wisely here.
    And so when you come to us with plans, I think one of the 
things the Chairman has said is very important--it probably 
will be cheaper if we do it is sooner rather than later. But we 
need to know with confidence that when we proceed it is going 
to be what needs to be done, so that we are not hanging out 
there and the American people aren't hanging out there, you 
know, 5 years from now when you complete a project, and instead 
of $752 million, it is $2.3 billion, and we are trying to say, 
hey, this is what it cost. I don't think that is going to wash.
    So I am willing to work with the Chairman, and I am sure 
others are, to give you the authorization for what needs to be 
done, but we are going to be very careful about how that money 
is spent.
    The last thing I would say is, you know, the Cannon 
Building has stood the test of time and we have Members here 
who have Cannon Building offices. We also have Members who have 
sleeping quarters there now, and it is kind of interesting to 
see how you are going to do some of the work at night that 
causes a lot of noise when you have Members who are attempting 
to get some peace and quiet.
    Please take my remarks as they are meant. And that is, I 
support the effort to do this, but we are going to have to be 
looking as vigorously as we can on making sure these costs do 
not go out of kilter, and the GAO is going to help us in doing 
that, but this committee and our committee staff is going to 
help us in doing that as well.
    I thank the Chairman.
    The Chairman. Thank you. Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I think echoing the 
comments of the Chair and Ranking Member, it is absolutely 
important for us to know what we are getting into before we 
begin. And if we take a look at the CVC, as Mr. Lungren has 
said, the added security after 9/11 changed a lot and also the 
need for additional space for committees. And I mean it was the 
might-as-well-as's that got us there, and obviously we have 
confined space here. That is a whole different situation.
    But on the security issue, I am hopeful that we can not 
just talk to the Capitol Police, but go a little bit farther 
than that to explore what we might want to build in from the 
beginning because, right now, the police are out there in 
sweltering weather, in freezing weather, doing visual 
inspections. There are some other alternatives to what we are 
doing now in terms of security for vehicles coming in and out, 
and I am hopeful that we can explore that fully, not just with 
the Department but maybe Lawrence Livermore Lab and some of the 
other technology alternatives that are available so that we 
know completely what is available before we move forward.
    I want to mention energy conservation. Last year, the CAO 
came out to my district and spent time looking at a company in 
downtown San Jose, Adobe Systems, not because of their great 
technology--although they have it--but because of what they 
have done in their building. They cut their energy consumption 
by half. It is just astonishing what they have done, and many 
of the things they did paid for themselves, I mean they put, 
you know, thousands of sensors out. The sensors paid for 
themselves in less than 2 months.
    And so what I would like to do is, we wrote--Congressman 
Honda, myself and Mr. Beard, wrote a report after this review, 
and I would like to give you that report, because there are 
some very low-cost things that can be done that have a huge 
impact on energy consumption.
    And in the energy consumption arena, I do know that the 
windows and other things need renovation, but we have got to 
end up with a building where you can still open the windows, 
you know. And that is an energy conservation thing as well 
because there are times in this city where you don't need the 
heat and you don't need the air conditioning. All you need to 
do is open the window, and it also improves air quality. So I 
want to make sure that that is understood as we move forward.
    And although there may be a structural reason why it can't 
be done, I have always wondered why you couldn't get the 
windows to open in the Rayburn Building as well. It may be that 
the windows are built into the structure of the building, as 
they are in some high-rises, but I think that would be an 
improvement.
    In terms of moving people around, I am assuming that the 
non-Member offices are going to be moved first so that Members 
will still be proximate to the Capitol itself for voting 
purposes; is that correct?
    Mr. Ayers. That is correct.
    Ms. Lofgren. Okay. And I assume also that we will have a 
large number of Members all of the sudden deciding that they 
will move to Rayburn after all, myself perhaps among them.
    Nobody likes to spend money, but it is important that we do 
this project, that we do it well, that we adequately map out 
the program before we begin the actual project, and I think I 
don't want any surprises. So the more we know about what we are 
going into the better off we are going to be. And certainly 
just as the Capitol itself, I mean the Cannon Building is a 
historic building. It needs to be treated with a great deal of 
respect. It is a national treasure, and we are just here 
temporarily taking care of it. It belongs to the American 
people.
    So thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady. Mr. Harper.
    Mr. Harper. Thank you, Mr. Chairman. How often will these 
cost projections--how often will they be reevaluated?
    Mr. Ayers. Well, I think most importantly, Congressman, is 
that we undertake the planning process that will start next 
year that we have included funds for in our 2010 budget. It is 
really at the end of that planning process that we will have a 
good conceptual number of what this project will cost. Then we 
will proceed into the design work, and it is, quite frankly, 
not until the end of the design work until we know exactly what 
it is and then we can determine how much it will cost.
    Mr. Harper. And the projected time at the end of the time 
design period would be when, best-case scenario?
    Mr. Ayers. Three years from now.
    Mr. Harper. If you did this vertically, you would do, I 
assume, a fourth of the building each time; is that the general 
plan basically?
    Mr. Ayers. Correct. Yes, sir.
    Mr. Harper. And it would take at least a year, year and a 
half, I guess, to do each phase of that?
    Mr. Ayers. We think it would take about a year. We think we 
ought to include some time up front for some sort of 
preconstruction work to get us ready to begin to undertake 
those phases. That work could take a year, but once we get 
started we think it is probably a year per phase.
    Mr. Harper. And as an occupant of Cannon, this is certainly 
going to require an ordeal. Was there any consideration--and I 
know this is a logistical nightmare to move offices and Members 
and staffs and different committees. It is going to be quite an 
undertaking, but was there any consideration given to, if it 
was possible, to do it all at one time and completely upset the 
apple cart? But what time frame would it--I am sure you looked 
at doing it as one complete project. What time length would it 
take, then, versus, say, 4 years or more now?
    Mr. Ayers. Well, we did look at constructing new buildings 
and stick-built buildings and swing space in various locations 
throughout the Capitol campus so that we can move everyone out. 
We really found that to be cost-prohibitive.
    Mr. Harper. Okay.
    Mr. Ayers. Most importantly, it will certainly save some 
time. I don't have a good number of how much time it will save, 
but it will save some time, but we found it to be much more 
expensive to do that.
    Mr. Harper. Thank you. That is all the questions I have, 
Mr. Chair.
    The Chairman. I thank the gentleman. Mr. Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    I have been in Cannon since I got here 11 years ago, and 
depending on when you start, I guess I will be leaving Cannon 
when it is my choice. I think Ms. Lofgren was making reference 
to that. All of us are thinking, all right.
    But as a practical matter, when we go to our colleagues, I 
think first that we are all going to be on the same page, 
recognizing the necessity. This is something that has to be 
done and can't be delayed, and it has to be done on the scale 
that you are proposing. I don't believe that there is going to 
be any argument there. So then we are going to go into cost and 
duration and such that other members on the committee have 
brought to your attention.
    When we talk to Members they are going to want to know who 
is going to be impacted and how long they are going to be 
impacted. So we are going to get into the swing space. And in 
your reference here, and I know in your response to Mr. Harper, 
you have indicated that there wasn't really any other viable 
alternative but to phase it in a way, because it does make 
sense if you could just get everybody out and just do all of 
the work. I mean you are not working around people and so on. 
That is not going to be an option, but I think we are going to 
need enough information to present it when these questions are 
posed that we will be able to answer it. And I think Members 
are going to be very cooperative, and especially those that 
haven't been elected yet. They are going to be real cooperative 
because they don't have any choice because, in essence, we have 
taken that space.
    Mr. Dorn, you had pointed something out in the 2007 Energy 
Act. We had a 2005 Energy Act, 2007, and we are going to have 
another one. Not real sure what the next one looks like. 
Unless, Dan, you have got a copy and I don't, it remains to be 
seen. Are there any mandates at this point prescribed by any 
legislation which we would not be meeting? I know that we had 
language that instructed GSA to be reporting all sorts of 
efficiency data, but I am not real sure that we said once you 
report that data and we find out we are not that efficient that 
we are supposed to do anything about it. When, Mr. Dorn, you 
made some reference that we wouldn't be up to certain 
standards, what specifically were you making references to?
    Mr. Dorn. I will start off, and maybe Stephen would want to 
add to that. The act does require Federal agencies to go in and 
reduce their energy consumption by a certain percentage, almost 
2 or 3 percent each year. And these guys are doing a good job 
of using energy saving performance contracts and their own 
people on other contracts to try and find low-hanging fruit and 
reduce energy costs and consumption where they can, but 
eventually you sort of run out of low-cost ideas. You need to 
do major things like replace all the air handlers, heating and 
air-conditioning equipment in the building. You can't do that 
without disrupting with a major renovation, and you will never 
get to where you need to be, I think, unless you can do those 
major things.
    Mr. Ayers. I think the specifics of the act, that was 
Energy Independence and Security Act of December 2007, requires 
us and every other Federal agency to reduce energy consumption 
by 3 percent per year over the course of 10 years, for a total 
of 30 percent. That is the first baseline that is in law. And 
secondly, of course, the Speaker's Green the Capitol Initiative 
requires 5 percent energy reduction per year over 10 years, for 
a total of 50 percent. So those are our current operating 
guidelines.
    Mr. Gonzalez. And it would be ironic, of course, because we 
are out here as government setting the example and asking the 
private sector to follow suit and such, even though it does 
increase costs, and there are these renovations and such that 
are necessary. But it comes down to basically practicing what 
we preach, practicing that which we legislate, and which I 
think is going to be very important.
    In San Antonio, I will tell you now that we have a Federal 
building that is approximately the same age as Cannon. And I 
know we are going to spend about $62 million on improvements 
very soon, and right now, we say we are going to make it more 
green, making it in essence more efficient. There is only so 
much you can do with changing light bulbs.
    So we are at that point, just on the efficiency standards. 
I think that is important. There is greater emphasis on that. 
We are also talking about the use of energy and such, and our 
own energy producing plant and, again, greenhouse gases, 
pollution and so on.
    So all of it is linked. But I think we go back--I am going 
to yield back by just making, again, the observation that we 
all recognize the necessity. We just have to be looking at the 
costs and the duration. Historically speaking, I know we are 
going to try our very best to keep within certain projections, 
and we can't anticipate everything, as Mr. Lungren pointed out 
when we were doing the Visitors Center. But thank you very much 
for your testimony and we will continue to work closely 
together.
    The Chairman. I thank the gentleman. You know, we do work 
real well together here. The problems that we have, as Mr. 
Lungren explained, is cost overruns, extras. We will be taking 
advantage and having some people--some Members might be a 
little bit difficult; maybe some of the same Members we don't 
want to go back and say we have to get a little bit more money. 
They will be a little irritated from the beginning. So we don't 
want to have to say--so if you could just, again, take that 
into consideration and get one opportunity to get this thing 
done.
    I do have to piggyback on Ms. Lofgren. My father was a 
police officer so I am a little bit favoring toward them. A lot 
of times I see them out there in the cold and it is pretty cold 
out there, and they have got to sit out there and wait for us 
to go scurrying back and forth and when they have got to check 
our cars. And we can be a little bit--a little more sympathetic 
toward their life and what they do, because they do protect us.
    I was here on 9/11 and we were running out and they were 
running in. So we can make their life a little bit easier. I 
don't know if the Senate hears me, but I had to steal an 
umbrella from the Senate side--they weren't using it--to bring 
it over to our side when it was like 100-degree weather, so our 
police officers have a little bit of shade, you know, and 
getting water coolers. So that is real important.
    But I am in the Cannon, I am stuck in here. I am not 
leaving. When we had that little anthrax scare, I staked out a 
park bench for 3 days and it was the best 3 days of my life. I 
didn't mind it. I was okay. But we do understand that it is 
going to be a tough issue, and we will work with you heartily 
every step of the way.
    Anybody else have any other questions? Thank you. Thank you 
for your time. This hearing is now adjourned.
    [Whereupon, at 11:43 a.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
